GR-80-99-006
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Stop Violence Against Indian Women Grants
Administered by the Osage Tribal Council
Grant Numbers
95-WI-NX-0005 AND 98-WI-VX-0004
 
GR-80-99-006
 
March 5, 1999
 
EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of the
"STOP (Services*Training*Officers*Prosecutors) Violence Against Indian Women
Grants," grant numbers 95-WI-NX-0005 and 98-WI-VX-0004, administered by the Osage
Tribal Council (Council). The grants totaled $268,687 for the period September 30, 1995,
through March 31, 1999. The FY 1995 STOP grant for $89,676 was effective from September
30, 1995, through September 29, 1997. The FY 1998 STOP grant for $179,011 is effective
from September 17, 1997, through March 31, 1999.
On September 17, 1997, the United States Court of Appeals for the Tenth Circuit decided
Fletcher v. United States, 116 F. 3d 1315 (10th Cir. 1997). This decision
recognized the Council as the valid entity for the Osage Tribe. As a result of the ruling,
the Violence Against Women Grants Office deobligated FY 1995 STOP grant funds to the Osage
Nation and re-awarded the remaining funds to the Council.
We identified the following weaknesses with regard to the Osage Tribe (Tribe) meeting
grant conditions.


The Tribe was unaware of a remaining $6,974 balance for the FY 1995 STOP grant.


The Tribe charged $3,410 for indirect costs to the grant, contrary to a special grant
    condition that prohibited the paying of indirect costs, pending the issuance of a Grant
    Adjustment Notice.


The Tribe charged costs of $305 for a Christmas dinner and $190 for a community
    awareness dinner without obtaining OJP approval.


The Tribe did not submit four Financial Status Reports timely.


The Tribe did not submit three required Categorical Assistance Progress Reports.


The Tribe charged costs of $149 that were not approved budget items.

These weaknesses are discussed in the Findings and Recommendations section of this
report. Our audit scope and methodology are described in Appendix I.
#####